TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Management Practices Over End-user
                Computer Server Storage Need Improvement
                 to Ensure Effective and Efficient Storage
                                Utilization



                                            July 3, 2007

                              Reference Number: 2007-20-103




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                July 3, 2007


 MEMORANDUM FOR CHIEF INFORMATION OFFICER



 FROM:                    (for) Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Management Practices Over End-user Computer
                                Server Storage Need Improvement to Ensure Effective and Efficient
                                Storage Utilization (Audit # 200620023)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) end-user1
 computer server storage management. The overall objective of this review was to assess the
 effectiveness and efficiency of the IRS management practices over the end-user computer server
 storage environment for employees using the IRS Microsoft Windows computer networks.

 Impact on the Taxpayer
 The IRS needs to improve management practices over end-user computer server storage to
 ensure effective and efficient utilization of storage and budget resources. In Fiscal Years 2003
 through 2006, the Modernization and Information Technology Services (MITS) organization
 spent $19.9 million to purchase server storage capacity and support. However, only 27 percent
 of the available storage was being used on the 2,253 servers we reviewed. In addition, the IRS
 had not established policies and procedures for monitoring end-user computer server storage
 usage, including both end-user infrastructure and application server storage. As a result, it may
 not have most efficiently used its resources.

 Synopsis
 The IRS requires a large and complex computer environment, which includes computer servers
 managed by several functions within the MITS organization to process and store taxpayer,

 1
     See Appendix V for a Glossary of Terms.
                  Management Practices Over End-user Computer Server Storage
                   Need Improvement to Ensure Effective and Efficient Storage
                                         Utilization


financial, and administrative data. On May 14, 2006, the MITS organization began centralizing
under the Enterprise Operations organization the management of all servers in both the
Enterprise Operations and the End User Equipment and Services organizations. Other MITS
organizations continue to manage their own servers. In Fiscal Years 2003 through 2006, the
MITS organization spent $19.9 million to purchase server storage capacity and support. It
planned to spend an additional $9.3 million in Fiscal Years 2006 and 2007; however, the
$9.3 million was redirected and put to better use on higher priority information technology
infrastructure needs (see Appendix IV).
We identified storage management practices that could be                  Although the MITS organization
improved to provide more effective and efficient server                        began centralizing server
storage utilization and better informed storage purchasing                  management and reallocated
decisions.                                                                budgeted storage funds, policies
                                                                           and procedures did not ensure
    •   The MITS organization does not assign server                        effective and efficient storage
        storage space to end-users based on industry best                  utilization. In Fiscal Years 2003
        practices. The IRS assigns 500 megabytes of                     through 2006, the MITS organization
                                                                           spent $19.9 million to purchase
        server storage space to each end-user, while                    server storage and storage support.
        industry best practices recommend 200 megabytes                 However, only 27 percent of storage
        of storage for each user. In addition, storage space                   capacity was being used.
        used by former employees was not always made
        available for other uses; we identified 2,098 former
        employees with storage space still assigned.
    •   Only 27 percent of the available storage was being used on the 2,253 servers we
        reviewed. Based on the unused storage rate of 73 percent, $14.6 million2 of the
        $19.9 million spent on the purchase of storage capacity and support during Fiscal
        Years 2003 through 2006 represents an inefficient use of resources (see Appendix IV).
    •   MITS organization management did not have an accurate inventory of all available server
        storage space. The number of servers shown in the different systems varied, with
        2,256 servers in the Tivoli® inventory system, 3,478 servers in the Enterprise Systems
        Management Organization Master Server Database, and 4,783 servers in the Information
        Technology Asset Management System. In a prior audit report,3 we recommended
        mismatches between records on the Tivoli® inventory system and the Information
        Technology Asset Management System be resolved. The IRS closed the corrective
        action on March 3, 2006; however, only 47 percent4 of the servers inventoried in the

2
  Total storage costs of $19,936,816 x 73 percent unused storage rate = $14,553,876 (rounded).
3
  Progress Has Been Made in Using the Tivoli® Software, Although Enhancements Are Needed to Better Distribute
Software Updates and Reconcile Computer Inventories (Reference Number 2006-20-021, dated December 2005).
4
  The 2,256 servers in the Tivoli® inventory system/4,783 servers in the Information Technology Asset Management
System = 47 percent (rounded).
                                                                                                               2
                Management Practices Over End-user Computer Server Storage
                 Need Improvement to Ensure Effective and Efficient Storage
                                       Utilization


       Information Technology Asset Management System were identified in the Tivoli®
       inventory system records during this review.
IRS management advised us that automated inventory tools should be used to create reports that
link the Information Technology Asset Management System data to the data gathered from those
tools. In addition, the contractor assisting the IRS in the Sustaining Infrastructure Initiative is
recommending the IRS implement an Asset Discovery Tool to provide a more complete set of
data by recognizing all assets through network addresses. The contractor is also recommending
a modification of the current Information Technology Asset Management System infrastructure
to support more robust data fields. Therefore, it appears various IRS organizations are pursuing
different computer inventory solutions that may be inconsistent and duplicative.
In addition, the Server Consolidation and Virtualization project was not following required
project management procedures because a business case and cost-benefit analysis had not been
prepared. Following required project management procedures will help minimize the risks of
cost overruns, schedule delays, and inadequate executive governance and oversight.

Recommendations
We recommended the Chief Information Officer (1) centralize management of all MITS
organization storage servers, where appropriate, to improve the effectiveness and efficiency of
storage management; (2) periodically analyze storage utilization to ensure storage space is
efficiently used prior to purchasing any additional storage capacity; (3) ensure the MITS
organization establishes formal policies and procedures over the assignment and monitoring of
end-user computer server storage space; (4) resolve server mismatches between records on the
Tivoli® inventory system and the Information Technology Asset Management System and
reopen the prior corrective action regarding resolution of such mismatches until it is completed;
(5) define the future inventory system design requirements to meet all user needs and implement
one reliable computer inventory system; and (6) ensure required project management procedures,
such as preparing a formal business case, feasibility study, and cost-benefit analysis, are
followed by the Server Consolidation and Virtualization project.

Response
IRS management agreed with all recommendations except the first part of Recommendation 3
and plans to take an alternative corrective action to the second part of Recommendation 4. The
corrective actions to be implemented include centralizing management of storage servers where
appropriate; analyzing storage utilization quarterly; and defining policies and procedures to
enforce end-user storage limits, govern file retention for exiting employees, and standardize file
management processes. Also, operational databases will be synchronized with the Information
Technology Asset Management System as much as possible, and Information Technology Asset

                                                                                                     3
               Management Practices Over End-user Computer Server Storage
                Need Improvement to Ensure Effective and Efficient Storage
                                      Utilization


Management System functionality will be improved and automated efficiencies introduced. The
Server Consolidation and Virtualization project will follow management procedures.
For Recommendation 3, management did not agree to assign storage space to users based on
industry best practices because the IRS standard, which assigns shared storage space based on
employees’ business needs, increases employee efficiency. For Recommendation 4,
management plans to open a new corrective action based on the closing action to the prior
corrective action. Management’s complete response to the draft report is included as
Appendix VI.

Office of Audit Comment
We continue to believe management could reduce storage costs by using the industry best
practice of 200 megabytes for most employees and allowing exceptions to this policy for
employees who have a business need for additional storage based on their assigned duties. We
concur with not reopening the prior corrective action because the proposed actions should reduce
the mismatches between records on the Tivoli® inventory system and the Information
Technology Asset Management System.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                4
                      Management Practices Over End-user Computer Server Storage
                       Need Improvement to Ensure Effective and Efficient Storage
                                             Utilization




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Management of the End User Equipment and Services Organization’s
          Servers Was Centralized Under the Enterprise Operations
          Organization..................................................................................................Page 3
                    Recommendation 1:........................................................Page 3

          Storage on Servers Was Not Effectively Managed to Ensure Efficient
          Use of Resources...........................................................................................Page 4
                    Recommendations 2 and 3: ..............................................Page 6

          Management Did Not Have an Accurate Inventory of All Available
          Server Storage Space ....................................................................................Page 7
                    Recommendations 4 and 5: ..............................................Page 9

          A Storage Management Improvement Initiative Was Not Following
          Required Project Management Procedures...................................................Page 10
                    Recommendation 6:........................................................Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Outcome Measures...............................................................Page 17
          Appendix V – Glossary of Terms .................................................................Page 20
          Appendix VI – Management’s Response to the Draft Report ......................Page 23
        Management Practices Over End-user Computer Server Storage
         Need Improvement to Ensure Effective and Efficient Storage
                               Utilization




                       Abbreviations

EUES             End User Equipment and Services
IRS              Internal Revenue Service
ITAMS            Information Technology Asset Management System
MITS             Modernization and Information Technology Services
                  Management Practices Over End-user Computer Server Storage
                   Need Improvement to Ensure Effective and Efficient Storage
                                         Utilization




                                           Background

The Internal Revenue Service (IRS) requires a large and complex computer environment to
process and store taxpayer, financial, and administrative data. A significant portion of the
computer processing workload is performed by the IRS’ mid-range1 and mainframe computer
systems. The workload is also processed by the end-user computing environment, which
consists of desktop and laptop computers and network servers. The end-user computer server
storage environment supports tax return processing, compliance applications, internal
management applications, and enterprise storage and retrieval. We have previously reported on
the storage management practices of the mid-range2 and mainframe computers.3 The focus of
this review was on the end-user computer server storage environment for employees using the
IRS Microsoft Windows computer networks, including both end-user infrastructure and
application servers.
In Fiscal Years 2003 through 2006, the Modernization and Information Technology Services
(MITS) organization spent $19.9 million to purchase end-user server storage and storage support
for the Enterprise Operations, End User Equipment and Services (EUES), and Enterprise
Services organizations. Figure 1 presents the yearly expenditures.
                       Figure 1: End-user Server Storage Expenditures

                              Fiscal Year               Amount Expended
                                  2003                       $1,241,061
                                  2004                       $9,909,778
                                  2005                       $8,727,492
                                  2006                         $58,485
                                  Total                      $19,936,816
                          Source: The Enterprise Operations and Enterprise Services
                          organizations.




1
  See Appendix V for a Glossary of Terms.
2
  Mid-range Computer Storage Resources Need Better Administration to Ensure Effective and Efficient Utilization
and Accurate Reporting (Reference Number 2005-20-098, dated July 2005).
3
  Improvements in Mainframe Computer Storage Management Practices and Reporting Are Needed to Promote
Effective and Efficient Utilization of Disk Resources (Reference Number 2006-20-056, dated May 2006).
                                                                                                         Page 1
               Management Practices Over End-user Computer Server Storage
                Need Improvement to Ensure Effective and Efficient Storage
                                      Utilization



This review was performed in MITS organization offices at the IRS National Headquarters in
New Carrollton, Maryland, and the Enterprise Computing Center in Memphis, Tennessee, during
the period January 2006 through February 2007. The audit was conducted in accordance with
Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                    Page 2
                   Management Practices Over End-user Computer Server Storage
                    Need Improvement to Ensure Effective and Efficient Storage
                                          Utilization




                                       Results of Review

Management of the End User Equipment and Services Organization’s
Servers Was Centralized Under the Enterprise Operations
Organization
The Clinger-Cohen Act of 19964 states the Chief Information Officer is responsible for
promoting the effective and efficient design and operation of all major information resources
management processes for the executive agency. The Internal Revenue Manual states the Chief
Information Officer and the Director, Enterprise Operations, within the MITS organization are
responsible for ensuring the effective and efficient use of the IRS automated information
processing environment.
Prior to May 14, 2006, MITS organization end-user servers were managed by several MITS
organizations (e.g., Enterprise Operations, EUES, Applications Development [formerly Business
Systems Development], and Enterprise Services). The IRS determined that managing servers
across multiple organizations was ineffective and, in May 2006, centralized server management
of all Enterprise Operations and EUES organization servers under the Enterprise Operations
organization. However, some MITS organizations, such as the Applications Development
(54 servers) and Enterprise Services (22 servers) organizations, continue to manage their own
servers. The EUES organization indicated end-user server management was not centralized
completely because the agreement to centralize servers was only between the EUES and
Enterprise Operations organizations. As a result of not centralizing the management of all
servers, it is more difficult for the MITS organization to ensure servers are managed effectively
and efficiently.

Recommendation
Recommendation 1: The Chief Information Officer should centralize management of all
MITS organization storage servers into the Enterprise Operations organization, where
appropriate, to improve the effectiveness and efficiency of storage management.




4
 Federal Acquisition Reform Act of 1996 (Information Technology Management Reform Act of 1996),
Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
                                                                                                             Page 3
                   Management Practices Over End-user Computer Server Storage
                    Need Improvement to Ensure Effective and Efficient Storage
                                          Utilization



         Management’s Response: IRS management agreed with the recommendation. The
         MITS organization will centralize management of storage servers into the Enterprise
         Operations organization, where appropriate, to improve the effectiveness and efficiency
         of storage management.

Storage on Servers Was Not Effectively Managed to Ensure Efficient
Use of Resources
The Internal Revenue Manual requires electronic copies of records, including copies maintained
by individuals in personal files or directories, that have no further administrative value to be
deleted within 180 calendar days after the recordkeeping copy has been produced. The
Department of the Treasury Information System Life Cycle Manual (TD P 84-01, dated
March 2002) states one of the benefits of data management is that it avoids the cost of redundant
data collection and storage. File (data) management includes controlling the creation, deletion,
access, and use of data files and programs.
We received storage utilization information on 2,292 (48 percent) of 4,783 servers shown in the
Information Technology Asset Management System (ITAMS) as of September 29, 2006.
Storage usage information for the remaining servers was not readily available and obtained due
to the impact the data gathering might have had on storage management personnel. Our analysis
of the information for 2,253 servers (2,292 servers less 39 newly installed servers) determined
only 27 percent of the 484.1 terabytes of storage space on the servers was used. Based on the
unused storage rate of 73 percent, $14.6 million of the $19.9 million5 spent on the purchase of
storage capacity and support during Fiscal Years 2003 through 2006 represents an inefficient use
of resources (see Appendix IV).
In the two prior audits of the IRS’ storage management practices, we reported the IRS needed to
improve the efficiency of its storage utilization and should consider storage utilization when
assessing the need to purchase additional storage. In Fiscal Years 2006 and 2007, the IRS
budgeted $9.3 million to purchase end-user server storage and storage support for the Enterprise
Operations, EUES, and Enterprise Services organizations. However, the MITS organization
decided not to spend the budgeted funds. These funds were redirected and put to better use on
higher priority information technology infrastructure needs (see Appendix IV).
The storage utilization rate is comparable to industry results reported by Gartner, Inc.,6 which
showed that only 28 percent to 45 percent of installed storage was actually holding data. The



5
 Total storage costs of $19,936,816 x 73 percent unused storage rate = $14,553,876 (rounded).
6
 Gartner, Inc. is the leading provider of research and analysis to the global information technology industry.
[Source: SANZ (smarter about storage)® industry white paper entitled, “Building a Tiered Storage
Architecture-Because Not All Data is Created Equal”.]
                                                                                                                 Page 4
                Management Practices Over End-user Computer Server Storage
                 Need Improvement to Ensure Effective and Efficient Storage
                                       Utilization



IRS storage utilization rate was low, in part, because storage utilization rates were not a
determining factor in deciding whether to buy more storage space.
In addition, our review of the MITS organization’s end-user server storage management controls
determined that existing policies and procedures do not:
   •   Assign storage space to users based on industry best practices.
       The IRS established a policy that end-users can be assigned 500 megabytes of server
       storage space (called home directory space). However, industry best practices
       recommend 200 megabytes of storage for each user. As a result, the IRS is incurring
       additional costs to maintain unneeded storage space. In addition, while the IRS assigns
       500 megabytes of storage space to each end-user, no formal policy is in place to ensure
       storage limits are enforced.
   •   Make the storage space assigned to former employees
       available for other users.
       A total of 2,098 former employees had files using                 Use of storage resources
       approximately 0.138 terabytes (equivalent to 70,000,000             is not considered for
                                                                            managing files and
       pages of text) of storage on the end-user servers managed
                                                                             identifying needs.
       by the MITS organization. Decentralized management of
       end-user server storage contributed to the lack of
       procedures for removing the files of former employees.
   •   Establish standardized file management processes for server storage space. These
       processes include ensuring:
       a) Certain files and file types are removed from servers.
       b) Files that have not been accessed or modified for a specified period of time
          (e.g., more than 1 year) are removed and archived.
       c) A review of the server storage space is completed at regular intervals (e.g., every
          6 months) to determine whether only those files with a business purpose and
          immediate need are being stored.
       IRS management indicated use of one set of standards for file management and the
       enforcement of users’ storage limits were currently not possible because different
       software platforms (e.g., Microsoft Windows 2003 Server Operating System, Microsoft
       Windows NT) exist. However, IRS management also stated uniform standards and
       policies for managing files and the enforcement of storage limits could be established
       after an ongoing server operating system upgrade is completed.
       Management indicated system administrators are also hampered in monitoring files
       because they do not have the authority to look for or remove nonwork-related files or

                                                                                              Page 5
                Management Practices Over End-user Computer Server Storage
                 Need Improvement to Ensure Effective and Efficient Storage
                                       Utilization



       adequate software to identify old, unused, and nonwork-related files. The IRS developed
       draft policies and procedures for file management of storage shared by multiple users and
       issued guidelines to educate employees on “good housekeeping” practices for file
       management of personal storage. Management commented that these procedures and
       guidelines are targeted for inclusion in the Internal Revenue Manual; however, they did
       not provide us with a scheduled completion date.
Without efficient and effective storage management controls to review storage utilization,
implement standardized policies and procedures for managing files, and enforce users’ storage
limits, the IRS runs the risk of not effectively using current storage capacity and unnecessarily
purchasing additional storage capacity.

Recommendations
Recommendation 2: The Chief Information Officer should periodically analyze storage
utilization to ensure storage space is efficiently used prior to purchasing additional storage
capacity.
       Management’s Response: IRS management agreed with the recommendation. The
       MITS organization will develop a process to analyze storage utilization quarterly to
       ensure storage space is efficiently used prior to purchasing additional capacity.
Recommendation 3: The Chief Information Officer should ensure the MITS organization
establishes formal policies and procedures to:
   •   Assign storage space to users based on industry best practices.
   •   Use the new operating system capability to enforce end-user storage limits.
   •   Define a reasonable time period for determining the business need of files being stored
       for former employees. Once the business need of the files is determined, archive,
       transfer, or remove the files.
   •   Standardize file management processes.
       Management’s Response: The Chief Information Officer disagreed with the
       recommendation that storage space be assigned to users based on industry best practices,
       stating that, while the industry best practice recommendation is for 200 megabytes, the
       IRS has found it necessary to assign 500 megabytes per user. The IRS standard assigns
       shared storage space based on employees’ business needs. This standard was determined
       by reviewing industry best practices, assessing available (current and projected) storage
       space, monitoring current user usage, and working to meet business requirements. The
       Chief Information Officer also stated this standard increases employee efficiency.



                                                                                             Page 6
                Management Practices Over End-user Computer Server Storage
                 Need Improvement to Ensure Effective and Efficient Storage
                                       Utilization



       Management agreed with the three remaining parts of this recommendation and indicated
       the Enterprise Operations organization will:
           •   Implement defined policies and procedures regarding shared storage policies.
           •   Define a process for business organizations to identify additional requirements of
               file retention for exiting staff. System administrators will implement appropriate
               archival and removal of those files.
           •   Review, update, and distribute the current standardized file management process
               document.
       Office of Audit Comment: A 2004 study conducted by the IRS to determine the
       amount of storage space to assign to users indicated that only 4 percent of the employees
       were using more than 500 megabytes of storage. The study did not indicate the
       percentage of employees using more than the industry best practice of 200 megabytes. In
       addition, the study identified music, picture, and other files dating back to 1993 that were
       using storage space. We recognize that some employees may need more than
       200 megabytes of storage space to accomplish their assigned duties; however,
       establishing a standard 2.5 times the industry best practice will not lead to the most
       efficient use of storage resources. Therefore, we continue to believe management could
       reduce storage costs by using the industry best practice of 200 megabytes for most
       employees and allowing exceptions to this policy for employees who have a business
       need for additional storage based on their assigned duties.

Management Did Not Have an Accurate Inventory of All Available
Server Storage Space
The Government Accountability Office Standards for Internal Control in the Federal
Government state information should be recorded and communicated to management and others
within the entity who need it and in a form and within a time period that enables them to carry
out their responsibilities.
Management provided us with server inventory numbers from three sources.
   •   ITAMS – the official IRS computer equipment database used to record all computer
       inventories.
   •   Tivoli® inventory system – software implemented by the Enterprise Systems
       Management project to perform several tasks including asset management. On a weekly
       basis, the Tivoli® inventory system performs reconciliation between its records and the
       ITAMS inventory information.



                                                                                            Page 7
                  Management Practices Over End-user Computer Server Storage
                   Need Improvement to Ensure Effective and Efficient Storage
                                         Utilization



    •   Enterprise Systems Management Organization Master Server Database – A database
        created and maintained by the Enterprise Operations organization containing information
        specifically related to end-user server systems that is not included in the ITAMS. The
        information is used in conjunction with all available data from other sources when
        making end-user server storage purchasing decisions. The Enterprise Systems
        Management organization creates management reports with information from both the
        Master Server Database and the ITAMS.
Figure 2 shows the server inventory numbers varied depending on the source of the information.
                                   Figure 2: Server Inventories

                           Server Inventory System                   Number of Servers

                 ITAMS                                                       4,783

                 Tivoli® Inventory System                                    2,256

                 Enterprise Systems Management                               3,478
                 Organization Master Server Database
               Source: MITS organization storage management personnel.

In a prior audit report,7 we recommended the Chief Information Officer ensure the EUES
organization resolves mismatches between records on the
Tivoli® inventory system and the ITAMS. The IRS’ planned
corrective action was to include developing appropriate                Management cannot timely
                                                                        and effectively identify the
procedures by March 1, 2006, to resolve the mismatches. The           server storage environment.
IRS closed the corrective action on March 3, 2006. However,              Therefore, the IRS may
during this audit, only 2,256 (47 percent) of the 4,783 MITS           overestimate storage needs
organization-managed servers in the ITAMS inventory were              and unnecessarily purchase
identified in the Tivoli® inventory system records. The Tivoli®       storage hardware, software,
                                                                         maintenance, and other
inventory system was not complete and accurate because not all
                   ®                                                             support.
servers had Tivoli software installed on them or servers with
Tivoli® software installed were not properly configured to be
recognized as servers. Storage management personnel advised
us that all devices are not always labeled properly and consistently in the ITAMS.
In addition, the Enterprise Systems Management organization was manually maintaining the
Master Server Database to record information the ITAMS does not record. As of
October 4, 2006, 158 people could access and modify the Master Server Database. Based on the


7
 Progress Has Been Made in Using the Tivoli® Software, Although Enhancements Are Needed to Better Distribute
Software Updates and Reconcile Computer Inventories (Reference Number 2006-20-021, dated December 2005).
                                                                                                      Page 8
                Management Practices Over End-user Computer Server Storage
                 Need Improvement to Ensure Effective and Efficient Storage
                                       Utilization



information in Figure 2, the database does not contain information on all computer equipment in
the ITAMS. Manually maintaining a database outside of the official computer inventory
database (i.e., the ITAMS) may be an inefficient use of resources.
IRS management advised us the ITAMS is the official equipment inventory and that other
automated inventory tools should be used to create reports that link the ITAMS data to the data
gathered from those tools. In addition, the contractor assisting the IRS in the Sustaining
Infrastructure Initiative is recommending the IRS implement an Asset Discovery Tool to provide
a more complete set of data by recognizing all assets through network addresses. The contractor
is also recommending a modification of the current ITAMS infrastructure to support more robust
data fields. Therefore, it appears various IRS organizations are pursuing different computer
inventory solutions that may be inconsistent and duplicative.
Without an accurate inventory of all available storage and the effective coordination of computer
inventory initiatives, the IRS may not know how much storage it has; be unable to make reliable
investment and resource decisions; and purchase unnecessary storage hardware, software,
maintenance, and other support.

Recommendations
Recommendation 4: The Chief Information Officer should resolve the end-user server
mismatches between records on the Tivoli® inventory system and the ITAMS and reopen the
prior corrective action regarding resolution of such mismatches until it is actually completed.
       Management’s Response: IRS management agreed with the recommendation. The
       ITAMS inventory database should be the authoritative source for updates to operational
       databases such as the Tivoli® and Server databases. Since the audit, the IRS has taken
       several steps to ensure these operational databases are synchronous with the ITAMS as
       much as possible. The IRS is also developing perpetual inventory controls that will
       involve new software and processes. The Chief Information Officer plans to open a new
       corrective action because the closing action to the prior corrective action stated the EUES
       organization would develop a process to identify systems that were not being mapped by
       Tivoli® software and indicated that additional enhancements were needed for the data
       exchange between the Tivoli® inventory system and the ITAMS.
       Office of Audit Comment: We concur with not reopening the prior corrective action.
       The corrective actions proposed for Recommendation 4 should reduce the mismatches
       between records on the Tivoli® inventory system and the ITAMS.
Recommendation 5: The Chief Information Officer should assess the current computer
inventory systems and initiatives and define the future inventory system design requirements to
meet all user needs. Once the requirements are defined, one reliable computer inventory system
should be implemented.

                                                                                            Page 9
                Management Practices Over End-user Computer Server Storage
                 Need Improvement to Ensure Effective and Efficient Storage
                                       Utilization



       Management’s Response: IRS management agreed with the recommendation. The
       current ITAMS is the one standard inventory system for IRS computer equipment;
       however, the IRS is taking steps to improve its functionality and introduce automated
       efficiencies. Two initiatives underway will result in significant improvements to the
       ITAMS: (1) implementation of the “One Inventory” concept and process enhancements
       toward perpetual inventory controls and (2) initiation of a Business Process
       Reengineering group to develop best practice asset management processes. There are
       also other general actions in progress to facilitate this goal.

A Storage Management Improvement Initiative Was Not Following
Required Project Management Procedures
The Department of the Treasury Information System Life Cycle Manual states general
standardization of life cycle management ensures systems are developed, acquired, evaluated,
and operated efficiently, within prescribed budget and schedule constraints, and are responsive to
mission requirements. In addition, the IRS system development guidelines (currently, the
Enterprise Life Cycle – Lite) stipulate that, as part of the information system life cycle
management process, project management should identify project risks early and manage them
before they become problems.
The Clinger-Cohen Act of 1996 requires agencies to use a disciplined Capital Planning and
Investment Control process to acquire, use, maintain, and dispose of information technology. In
addition, Office of Management and Budget Circular A-11, Preparation, Execution, and
Submission of the Budget, requires each agency to include an Agency Information Technology
Investment Portfolio (Exhibit 53) with its annual budget submission to the Office of
Management and Budget. The IRS classifies a project as a major information technology
investment if the annual investment exceeds $5 million or if the total life cycle cost exceeds
$50 million. Major investments require increased executive oversight and preparation of a
detailed Capital Asset Plan and Business Case (Exhibit 300).
In April 2004, IRS management prepared a Tier III Master Server Consolidation Plan outlining a
server consolidation strategy. Management indicated that additional servers were to be
purchased following the principles of this Plan. However, the Plan did not assess the existing
end-user server storage environment or the proposed network storage design and did not provide
cost estimates for the new storage design, which was to include storage virtualization. In
addition, a formal business case, feasibility study, and cost-benefit analysis were not prepared.
Therefore, the server consolidation initiative was not following required project management
procedures, although it met the Capital Planning and Investment Control cost thresholds for a
major information technology investment. Specifically, the MITS organization spent
$9.9 million in Fiscal Year 2004 and $8.7 million in Fiscal Year 2005 on end-user server storage.


                                                                                          Page 10
                Management Practices Over End-user Computer Server Storage
                 Need Improvement to Ensure Effective and Efficient Storage
                                       Utilization



The IRS considered the server consolidation strategy to be a plan of action to achieve its goals of
reducing the number of servers in inventory and consolidating the location of servers to the
campus sites. In July 2006, management advised us that a formal Server Consolidation and
Virtualization project had been approved. The Enterprise Operations organization is sponsoring
the project and a Project Manager has been assigned.
When information technology initiatives do not follow required project management procedures,
the IRS increases the risks of cost overruns and schedule delays. In addition, projects may not
have adequate executive governance and oversight.

Recommendation
Recommendation 6: The Chief Information Officer should ensure required project
management procedures, such as preparing a formal business case, feasibility study, and
cost-benefit analysis, are followed by the Server Consolidation and Virtualization project.
       Management’s Response: IRS management agreed with the recommendation. The
       MITS organization has assigned a project manager and will ensure completion of
       management procedures, including a business case, feasibility study, and cost-benefit
       analysis.




                                                                                           Page 11
                    Management Practices Over End-user Computer Server Storage
                     Need Improvement to Ensure Effective and Efficient Storage
                                           Utilization



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the effectiveness and efficiency of the IRS
management practices over the end-user1 computer server storage environment for employees
using the IRS Microsoft Windows computer networks. Specifically, we:
I.         Determined whether the IRS developed and implemented policies and procedures for
           managing end-user server storage.
           A. Reviewed Treasury Directives, Office of Management and Budget Circulars, the
              Internal Revenue Manual, and other guidelines governing storage management.
           B. Obtained and evaluated the policies and procedures for establishing and managing the
              size of home directories. We also reviewed the IRS process and best practices for
              establishing home directory size and compared best practices to the IRS policy and
              procedures. We interviewed IRS personnel to obtain procedures for managing
              storage size.
           C. Obtained and evaluated the procedures and guidelines to remove and/or archive
              duplicate, old, unused, and nonwork-related files.
           D. Obtained and evaluated the IRS data retention requirements for home directories of
              separated and inactive employees.
           E. Identified the amounts the MITS organization expended to add or replace capacity
              for, maintain, and support end-user server storage space during Fiscal Years 2003
              through 2006 and the amount included in the budget request for Fiscal Year 2007.
           F. Determined whether a design flowchart for the end-user network server storage
              environment was prepared.
II.        Determined the status of the end-user server storage consolidation initiatives and whether
           selected project management controls were implemented.
           A. Identified the end-user server migrations made between Fiscal Years 2003 and 2006
              and determined their status.
           B. Determined whether a business case, consolidation plan, or other related plans were
              developed for the end-user server storage consolidation effort and whether a
              feasibility study was prepared.

1
    See Appendix V for a Glossary of Terms.
                                                                                             Page 12
                    Management Practices Over End-user Computer Server Storage
                     Need Improvement to Ensure Effective and Efficient Storage
                                           Utilization



          C. Evaluated the adequacy of all consolidation plans, justifications, and need
             assessments, including whether a cost-benefit or impact analysis was performed.
III.      Determined whether end-user server storage utilization was effectively and efficiently
          managed.
          A. Interviewed storage management personnel and Computing Center and campus
             management to obtain an accurate inventory of MITS organization-owned end-user
             servers as of September 29, 2006. Storage utilization-related information was
             obtained on 2,292 (48 percent) of 4,783 servers to determine the utilization of the
             server storage space. We also interviewed MITS organization personnel to identify
             the number of separated and inactive employees, obtained a list of separated
             employees from the Treasury Integrated Management Information System, and
             determined how to match employees’ identifying information to the server
             information to determine whether employees’ home directories still resided on the
             servers after the employees had separated from the IRS.
          B. Analyzed the data obtained in Step III.A. to determine whether the IRS was
             effectively managing end-user server storage and whether excess storage was
             allocated to servers.

Validity and reliability of data from computer-based systems

We used computer-based data to determine the amounts spent and planned to be spent on
replacement and additional disk storage capacity. The IRS provided Integrated Financial System
information regarding the end-user server storage expenditures in Fiscal Years 2004 through
2006. We relied on the Government Accountability Office’s assessment of the reliability of the
computer-processed data from the Integrated Financial System. During a review of the IRS’
financial statements,2 the Government Accountability Office concluded the expense and
reimbursable revenue information processed through the System for Fiscal Years 2005 and 2006
was reliable in all material respects. We also used computer-based data to analyze end-user
server storage utilization. The storage data were validated by working with IRS storage
personnel to ensure completeness and accuracy. IRS personnel provided storage
utilization-related information identified through a Tivoli® scan of the servers; identified
end-user servers installed from July 9, 2006, through August 9, 2006; and identified retired
(out-of-service) servers.
The data used to determine the number of separated/inactive employees with home directories
residing on end-user servers were validated by comparing a list of authorized storage server users
to the IRS personnel system. We attempted to validate the end-user server inventory by
comparing the information received from three different inventory systems (the ITAMS, the

2
    Financial Audit: IRS’s Fiscal Years 2006 and 2005 Financial Statements (GAO-07-136, dated November 2006).
                                                                                                      Page 13
                Management Practices Over End-user Computer Server Storage
                 Need Improvement to Ensure Effective and Efficient Storage
                                       Utilization



Tivoli® inventory system, and the Enterprise Systems Management Organization Master Server
Database). For the identified differences in the server inventory counts, we conducted
discussions with storage management personnel that had expertise with the inventory systems.
Our attempt to validate the server inventory was unsuccessful, and the results are presented in
detail in the Results of Review section of the report.




                                                                                         Page 14
               Management Practices Over End-user Computer Server Storage
                Need Improvement to Ensure Effective and Efficient Storage
                                      Utilization



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Danny Verneuille, Audit Manager
Mark Carder, Lead Auditor
Louis Zullo, Senior Auditor
Linda Screws, Auditor




                                                                                     Page 15
              Management Practices Over End-user Computer Server Storage
               Need Improvement to Ensure Effective and Efficient Storage
                                     Utilization



                                                                          Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer OS:CIO
Associate Chief Information Officer, End User Equipment and Services OS:CIO:EU
Associate Chief Information Officer, Enterprise Operations OS:CIO:EO
Director Stakeholder Management OS:CIO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Associate Chief Information Officer, End User Equipment and Services OS:CIO:EU
       Associate Chief Information Officer, Enterprise Operations OS:CIO:EO
       Director, Program Oversight Office OS:CIO:SM:PO




                                                                                  Page 16
                    Management Practices Over End-user Computer Server Storage
                     Need Improvement to Ensure Effective and Efficient Storage
                                           Utilization



                                                                                  Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•     Inefficient Use of Resources – Potential; $14,553,876 spent on the purchase of storage
      capacity and support (see page 4).

Methodology Used to Measure the Reported Benefit:
In Fiscal Years 2003 through 2006, the MITS organization spent $19.9 million to purchase
end-user1 server storage (including both end-user infrastructure and application server storage
and storage support) for the Enterprise Operations, EUES, and Enterprise Services organizations.
We received storage utilization information on 2,292 (48 percent) of 4,783 servers shown in the
ITAMS as of September 29, 2006. Storage usage information for the remaining servers was not
readily available and obtained due to the impact the data gathering might have had on storage
management personnel. Our analysis of the information for 2,253 servers (2,292 servers less
39 newly installed servers) determined only 27 percent of the 484.1 terabytes of storage space
was used. Based on the unused storage rate of 73 percent, $14.6 million ($19,936,816 storage
costs x 73 percent) spent on the purchase of storage capacity and support during Fiscal
Years 2003 through 2006 represents an inefficient use of resources.
IRS storage management personnel were unable to provide information regarding the specific
amount of end-user server storage capacity purchased in Fiscal Years 2003 through 2006. As a
result, we could not determine whether the entire $19.9 million spent to purchase end-user server
storage was unnecessary. Therefore, we estimated the amount of unnecessary storage
(i.e., inefficient use of resources) by multiplying the $19.9 million spent on storage by the
73 percent unused storage rate. Figure 1 shows the cost of unused end-user server storage
capacity.




1
    See Appendix V for a Glossary of Terms.
                                                                                           Page 17
                    Management Practices Over End-user Computer Server Storage
                     Need Improvement to Ensure Effective and Efficient Storage
                                           Utilization



                Figure 1: Cost of Unused End-user Server Storage Capacity
         Category             Fiscal Years     Fiscal Year     Fiscal Year    Fiscal Year          Fiscal Year
                               2003-2006          2003            2004           2005                 2006
                                 Totals
 Total server storage and      $19,936,816      $1,241,061      $9,909,778      $8,727,492                   $58,485
 storage support costs
 Total server                  $33,898,492      $2,815,578     $14,043,529    $16,980,900                    $58,485
 infrastructure costs
                                                                                              Budgeted funds
                                                                                              totaling $5,734,025
                                                                                              were withdrawn by the
                                                                                              IRS and spent on other
                                                                                              information
                                                                                              technology needs.
 Percentage the server               58.8%           44.1%           70.6%          51.4%     Unknown (but
 storage and storage                                                                          immaterial).
 support costs are of
 server infrastructure
 costs
 Unused storage space                  73%
 rate
 Inefficient use of            $14,553,876
 resources
 ($19,936,816 x 73%)
Source: MITS organization-provided expenditure and budget information for Fiscal Years 2003 through 2006 and
storage utilization information. If MITS organizations other than the Enterprise Operations, EUES, and Enterprise
Services organizations had end-user server storage funding, it is not included in the expended amounts in Figure 1.

 Type and Value of Outcome Measure:
 •   Funds Put to Better Use – Actual; $9,345,125 (see page 4).

 Methodology Used to Measure the Reported Benefit:
 In our two prior audits of the IRS’ storage management practices, we reported the IRS needed to
 improve the efficiency of its storage utilization and should consider storage utilization when
 assessing the need to purchase additional storage. In Fiscal Years 2006 and 2007, the IRS
 budgeted $9.3 million to purchase end-user server storage and storage support for the Enterprise
 Operations, EUES, and Enterprise Services organizations. However, the MITS organization
 decided not to spend the budgeted funds. These funds were redirected and put to better use on
 higher priority information technology infrastructure needs. Figure 2 shows the budgeted
 storage funds withdrawn and reassigned.


                                                                                                           Page 18
                  Management Practices Over End-user Computer Server Storage
                   Need Improvement to Ensure Effective and Efficient Storage
                                         Utilization



            Figure 2: End-user Server Storage Capacity and Support Costs
                             Withdrawn and Reassigned
                             Category                                      Amounts         Total Amounts
Fiscal Year 2006 end-user server infrastructure funded amount                $10,742,500
withdrawn
Fiscal Year 2006 infrastructure funded amount withdrawn                                         $5,734,025
representative of server storage and storage support costs


Fiscal Year 2007 end-user server infrastructure funded amount                 $6,734,187
withdrawn
Fiscal Year 2007 infrastructure funded amount withdrawn                                         $3,611,100
representative of server storage and storage support costs
Funds put to better use                                                                         $9,345,125
Source: MITS organization-provided budget information for Fiscal Years 2006 and 2007.




                                                                                                 Page 19
                   Management Practices Over End-user Computer Server Storage
                    Need Improvement to Ensure Effective and Efficient Storage
                                          Utilization



                                                                                                  Appendix V

                                      Glossary of Terms

Agency Information Technology                 A document covering information technology investments
Investment Portfolio (Exhibit 53)             for the agency as a whole that is to be submitted to the
                                              Office of Management and Budget if the agency (1) is
                                              subject to executive branch review and is requesting
                                              information technology funding via a Capital Asset Plan
                                              and Business Case (Exhibit 300) or (2) has budget
                                              authority of $500,000 or more for financial management
                                              systems.
Campuses                                      The data processing arm of the IRS; they process paper
                                              and electronic submissions, correct errors, and forward
                                              data to the Computing Centers for analysis and posting to
                                              taxpayer accounts.
Capital Asset Plan and Business               Used as a one-stop document for a myriad of information
Case (Exhibit 300)                            technology management issues such as business cases for
                                              investments, Clinger Cohen Act of 19961 implementation,
                                              agency’s modernization efforts, and overall project
                                              (investment) management.
Computing Centers                             Support tax processing and information management
                                              through a data processing and telecommunications
                                              infrastructure.
End-user                                      For this audit report, defined as an employee who uses the
                                              IRS Microsoft Windows computer network to accomplish
                                              assigned duties.




1
 Federal Acquisition Reform Act of 1996 (Information Technology Management Reform Act of 1996),
Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
                                                                                                            Page 20
                Management Practices Over End-user Computer Server Storage
                 Need Improvement to Ensure Effective and Efficient Storage
                                       Utilization



Enterprise Life Cycle – Lite    A system development methodology for all
                                nonmodernization projects.
Enterprise Systems Management   An information source for the Enterprise Operations
Organization Master Server      organization server support functions; it is populated with
Database                        data that are related specifically to server systems support,
                                enhance support of the server environment, and are not
                                required in the ITAMS.
Home Directory                  A directory that contains the personal files of a particular
                                user of the system.
Information Technology Asset    The official IRS computer equipment database used to
Management System               record all computer inventories.
Integrated Financial System     The system intended to address administrative financial
                                management weaknesses. The first release of the system
                                will include the Accounts Payable, Accounts Receivable,
                                General Ledger, Budget Execution, Cost Management,
                                and Financial Reporting activities. A future release will
                                be needed to fully resolve all administrative financial
                                management weaknesses.
Mainframe                       A powerful, multiuser computer capable of supporting
                                many hundreds of thousands of users simultaneously.
Megabyte                        A unit of measure used to describe memory and disk
                                capacity that is equal to approximately 1 million bytes or
                                1,024 kilobytes. It is also equivalent to approximately
                                500 pages of text.
Microsoft Windows NT            A family of operating systems produced by Microsoft, the
                                first version of which was released in July 1993.
Microsoft Windows 2003 Server   The Windows server software version used by the IRS.
Operating System
Mid-range Computers             File servers and related hardware, software, maintenance,
                                and services; they support enterprise application systems
                                and are located at the Computing Centers.
Server                          A computer that carries out specific functions (e.g., a file
                                server stores files, a print server manages printers, and a
                                network server stores and manages network traffic).


                                                                                     Page 21
                 Management Practices Over End-user Computer Server Storage
                  Need Improvement to Ensure Effective and Efficient Storage
                                        Utilization



Server Virtualization            The masking of server resources, including the number
                                 and identity of individual physical servers, processors, and
                                 operating systems, from server users. The server
                                 administrator uses a software application to divide one
                                 physical server into multiple, isolated virtual
                                 environments.
Storage Device                   A device (e.g., server) capable of storing data.
Terabyte                         A unit of measure used to describe memory and disk
                                 capacity that is equal to approximately 1 trillion bytes or
                                 1,024 gigabytes. It is also equivalent to approximately
                                 500,000,000 pages of text.
Tier III Computing Environment   The IRS computing environment that consists of desktop
                                 and laptop computers as well as end-user servers.
                                 Specifically, these devices support tax return processing,
                                 postfiling, compliance, and internal management
                                 applications; infrastructure servers supporting network
                                 access; enterprise storage and retrieval; enterprise
                                 infrastructure; and Commercial Off-the-Shelf software.
Tivoli®                          Tivoli® is a registered trademark owned by IBM. The
                                 implementation of Tivoli® is part of the IRS Enterprise
                                 Systems Management project encompassing help desk
                                 operations, network and systems management, software
                                 distribution, asset management, and performance
                                 measures analysis and reporting.
Treasury Integrated Management   The official automated personnel and payroll system for
Information System               storing and tracking all employee personnel and payroll
                                 data.
Virtualization                   Transforms physical hardware–servers, hard drives, and
                                 networks–into an infinitely flexible pool of computing
                                 resources (e.g., storage) that businesses can expand,
                                 reallocate, and use as needed.




                                                                                      Page 22
   Management Practices Over End-user Computer Server Storage
    Need Improvement to Ensure Effective and Efficient Storage
                          Utilization



                                                  Appendix VI

Management’s Response to the Draft Report




                                                         Page 23
Management Practices Over End-user Computer Server Storage
 Need Improvement to Ensure Effective and Efficient Storage
                       Utilization




                                                      Page 24
Management Practices Over End-user Computer Server Storage
 Need Improvement to Ensure Effective and Efficient Storage
                       Utilization




                                                      Page 25
Management Practices Over End-user Computer Server Storage
 Need Improvement to Ensure Effective and Efficient Storage
                       Utilization




                                                      Page 26
Management Practices Over End-user Computer Server Storage
 Need Improvement to Ensure Effective and Efficient Storage
                       Utilization




                                                      Page 27
Management Practices Over End-user Computer Server Storage
 Need Improvement to Ensure Effective and Efficient Storage
                       Utilization




                                                      Page 28
